•>

appendix-a
USCA11 Case: 20-13156

Date Filed: 04/02/2021

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13156-J
LUCKNER PIERRE,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Luckner Pierre, a Florida prisoner serving a 25-year sentence for sexual activity with a
child, seeks a certificate of appealability (“COA”) in order to appeal the district court’s denial of
his pro se 28 U.S.C. § 2254 petition. In order to obtain a COA, Mr. Pierre must make “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). He satisfies this
requirement by demonstrating that “reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong,” or that the issues “deserve encouragement to
proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotation marks omitted). He
has failed to make the requisite showing.
In Claims 1 and 2, Mr. Pierre argued that: (1) counsel failed to object to a bench trial when
Pierre did not knowingly and voluntarily waive his right to a jury trial on the charges in the

•>

USCA11 Case: 20-13156

Date Filed: 04/02/2021

Page: 2 of 2

amended information; and (2) counsel failed to withdraw his waiver of his jury-trial right after the
state filed the amended information, which, according to Mr. Pierre, substantively amended the
original information. Reasonable jurists would not debate the denial of these claims. With respect
to Claim 1, a review of the trial court’s colloquy with Mr. Pierre regarding his waiver confirms
that he knowingly, intelligently, and voluntarily waived his right to a jury trial. With respect to
Claim 2, Mr. Pierre’s trial counsel testified at the evidentiary hearing that she discussed the
amended information with him, and at all times, he wanted a bench trial. She also testified that
the amended information did not substantively change the original information and did not affect
her preparation of the case. Accordingly, he failed to show deficient performance or prejudice.
In Claims 3 and 4, Mr. Pierre argued that counsel misadvised him about his right to testify
and failed to seek suppression of his confession. Reasonable jurists would not debate the district
court’s determination that these claims are procedurally defaulted. In his counseled appeal from
the denial of his Fla. R. Crim. P. 3.850 motion, Mr. Pierre abandoned Claims 3 and 4 by not raising
them in his brief. He therefore did not exhaust all state court remedies that were available to him.
See 28 U.S.C. § 2254(b); Leonard v. Wainwright, 601 F.2d 807, 808 (5th Cir. 1979). In addition,
he has not shown cause and prejudice for his default, or that a fundamental miscarriage of justice
will result if these claims are not heard. See Martinez v. Ryan, 566 U.S. 1,16 (2012); Coleman v.
Thompson, 501 U.S. 722, 749-50 (11th Cir. 1991).
Accordingly, Mr. Pierre’s COA motion is DENIED.

;.•

/s/ Jill Pryor______ _____
UNITED STATES CIRCUIT JUDGE

2

c.

U.S. District Court - Southern District of Florida

Luckner Pierre W41601
Everglades Correctional Institution
Inmate Mail/Parcels
1599 SW 187th Avenue
Miami, FL 33194
Case: 0:18-cv-61112-MGC #23

3 pages

Thu Jul 23 23:56:08 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mailare returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Subject‘Activity in Case 0:18-cv-61112-MGC Pierre v. Secretary, Department of Corrections
et al Order on Report and Recommendations
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 7/23/2020 5:12 PM EDT and filed
on 7/23/2020
Case Name: Pierre v. Secretary, Department
of Corrections et al
Case Number: 0:18-cv-61112-MGC
Filer:
WARNING: CASE CLOSED on 07/23/2020
Document Number: 23

Docket Text:
ORDER ADOPTING [19] REPORT OF MAGISTRATE
JUDGE for [1] Application/Petition (Complaint) for Writ of Habeas Corpus.
This Court AFFIRMS and ADOPTS Judge Reid's Report and DENIES the Petition
for Writ of Habeas Corpus under 28 U.S.C. § 2254. This Court DENIES
a Certificate of Appealability. The Clerk will CLOSE this case. Signed by
Judge Marcia G; Cooke on 7/21/2020. <I>See attached document for full details.</I>
(kpe)
0:18-cv-61112-MGC Notice has been electronically mailed to:
Noticing 2254 SAG Broward and North CrimAppWPB@MyFloridaLegal.com
Jeanine Marie Germanowicz
crimappwpb@myfloridalegal.com, jeanine.germanowicz@myfloridalegal.com

0:18-cv-61112-MGC Notice has not been delivered electronically to those listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Service list page 1 only

APPENDIX-C
USCA11 Case: 20-13.156

Date Filed: 05/11/2021

Page: 1 of 1

i

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13156-J
LUCKNER PIERRE,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees,
Appeals from the United States District Court
for the Southern District of Florida
Before: JILL PRYOR and BRASHER, Circuit Judges.
BY THE COURT:
Luckner Pierre has filed a motion for reconsideration of this Court’ s April 2, 2021, order
denying a certificate of appealability in his appeal from the denial of his underlying habeas petition,
pursuant to 28 U.S.C. § 2254. Upon review, Pierre’s motion for reconsideration is DENIED
because he has offered no new evidence .or arguments of merit to warrant relief.

